<html>
<title> - CLIMATE CHANGE AND THE ARCTIC: NEW FRONTIERS OF NATIONAL SECURITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                     CLIMATE CHANGE AND THE ARCTIC:
                   NEW FRONTIERS OF NATIONAL SECURITY

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2009

                               __________

                           Serial No. 111-10

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
48-332PDF                 WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
            Brent Woolfork, Junior Professional Staff Member
        Genell Brown, Senior Staff Associate/Hearing Coordinator
         










                              C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Scott Borgerson, Ph.D., Visiting Fellow, Council on Foreign 
  Relations......................................................     9
Robert Corell, Ph.D., Vice-President of Programs, The Heinz 
  Center.........................................................    17
Mr. Mead Treadwell, Senior Fellow, Institute of the North........    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California: Global Warming Quotes.................     6
Scott Borgerson, Ph.D.: Prepared statement.......................    13
Robert Corell, Ph.D.: Prepared statement.........................    20
Mr. Mead Treadwell: Prepared statement...........................    35
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Article from Newsweek, April 28, 1975, entitled 
  ``The Cooling World''..........................................    53

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    67
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    70
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    71
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................    72
Questions for the record submitted by the Honorable Barbara Lee, 
  a Representative in Congress from the State of California, and 
  responses from Scott Borgerson, Ph.D., Robert Corell, Ph.D. and 
  Mr. Mead Treadwell.............................................    74

 
   CLIMATE CHANGE AND THE ARCTIC: NEW FRONTIERS OF NATIONAL SECURITY

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. I will 
now recognize myself for an opening statement on our hearing, 
``Climate Change and the Arctic: New Frontiers of National 
Security.''
    There is no place in the world where global warming is 
having a more profound effect than the Arctic. In recent years, 
we have witnessed the rapid disappearance of Arctic ice. Over 
the past two decades, the region has lost an area of thick ice 
roughly 1.5 times the size of Alaska.
    These changes have had serious impacts on the environment. 
They also have significant implications for U.S. foreign policy 
and for national security, as well as the economy. Yet, despite 
the growing importance of the region, the Arctic has been a 
comparatively low priority on Capitol Hill. That should change.
    A top national priority should be to address the root 
cause<greek-l>s deg. of global warming, in part by making a 
concerted effort to reduce U.S. greenhouse gas emissions. We 
should also work cooperatively with other nations in the U.N. 
climate change framework.
    As the scientific community has repeatedly warned us, our 
failure to act quickly and decisively on global warming could 
have catastrophic consequences. For example, receding ice could 
release massive quantities of methane gas trapped in the 
permafrost. Methane is a greenhouse gas 20 times more effective 
in trapping heat than carbon dioxide. The more the ice recedes, 
the more methane is released, thus causing more ice to melt. 
Once we get trapped in this vicious cycle, it will be very 
difficult to get out.
    Strangely enough, disappearing ice in the Arctic may also 
create commercial opportunities. It could transform the Arctic 
into a major transit route for global shipping. Trips from 
Japan to Europe could be cut by days. Shipping costs could be 
reduced up to 20 percent.
    How will the United States protect these new sea lanes and 
the surrounding environment? The changes expand the 
responsibilities of the Coast Guard and the U.S. Navy.
    The disappearance of ice could also unlock the region's 
abundant natural resources. By some estimates, the Arctic could 
hold as much as 22 percent of the undiscovered, recoverable 
energy resources in the world, including 90 billion barrels of 
oil. American and foreign companies are lining up to develop 
these resources. For example, in 2007 a Norwegian company 
launched the first commercial energy operations in the Arctic 
and is now shipping liquefied natural gas from Norway to 
American consumers.
    Due in large part to commercial interests, the Arctic 
coastal nations of Canada, Russia, Norway, Denmark, and the 
United States are attempting to claim precious territory, but 
there are several areas of dispute. Canada, Norway, and Russia 
have disagreements over the extent of the Eurasian continental 
shelf, and the United States has differences with our close 
ally, Canada, on the Northwest Passage, the Beaufort Sea, and a 
number of other unresolved territorial disputes. How will we 
work with these countries to settle overlapping claims?
    Climate change in the Arctic is also having a profound 
effect on animal and human life. Polar bears have experienced 
weight loss and birth rate declines due to the loss of ice 
floes. Fish that normally inhabit warmer waters in the south 
are moving north, and fish that already live in the Arctic 
waters are moving even further north. Indigenous people who 
have relied on sea ice for travel and hunting for generations 
have been forced to change their age-old traditions.
    All of these issues and questions are complicated. That is 
why it is important for the United States to address them 
comprehensively and in cooperation with other countries. 
Shortly before he left office, President Bush issued a 
directive on U.S. Arctic policy--the first update since 1994. 
It covers a wide range of policies from protecting national 
security to involving indigenous people in decision making to 
ensuring the environmental sustainability of natural resources.
    Does this directive reflect the right policy? How should 
Congress prioritize issues related to the Arctic? I believe 
Arctic conservation should be at the top of the agenda. I 
recently joined over 60 of my colleagues in sending a letter to 
President Obama recommending that he employ a science-based 
approach to safeguard this fragile region and manage U.S. 
activities. That letter<greek-l>It deg. also calls<greek-l>, 
that letter, deg. for the suspension of new industrial activity 
in the Arctic until a comprehensive Arctic conservation and 
energy plan has been completed.
    It is clear we still have much to learn about the changes 
occurring in the region, and it will be difficult to gather the 
data we need unless we increase our capabilities.
    The United States faces a drastic shortage of personnel and 
equipment in the region. The Coast Guard has only two temporary 
Arctic stations to cover an area 1.5 times that of the United 
States. It could take hours just to reach a ship in distress. 
We have only two polar icebreakers deployed and a third in 
mothballs. By comparison, Russia has 20 icebreakers, including 
seven that are nuclear powered.
    Other Arctic countries are rapidly increasing their 
capabilities in the region. Canada is building an Arctic 
Training Center, expanding its northern armed forces, and plans 
to upgrade a deepwater port in Nunavut. And Russia intends to 
spend billions of dollars to double the capacity of its port in 
Murmansk by 2015. The United States is far behind in this new 
race to the North Pole.
    But good Arctic stewardship requires more than enhancing 
capabilities. It requires cooperation.
    Last May, the United States and the other four coastal 
Arctic states met in Ilulissat, Greenland, and agreed to work 
cooperatively to settle any overlapping regional claims. They 
also concluded there is no compelling need for a comprehensive, 
international regime to govern the Arctic.
    The United States has also been working through the Arctic 
Council--a group of eight Arctic nations and representatives of 
various indigenous groups--to address environmental and 
developmental issues. But the Council's decisions are not 
binding.
    Experts such as Dr. Borgerson, whom we have here today, 
argue that a new governance structure is needed. Other experts 
believe the United States should first ratify the Law of the 
Sea Convention. In practice, the U.S. Government abides by the 
Convention, but is not a party to it. As a result, we are 
missing an opportunity to work cooperatively with Arctic 
nations in determining territorial boundaries.
    I think I will now cut myself off because my time has 
expired and recognize the ranking member for her opening 
statement and include my entire statement in the record.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. First I 
would like to point out that I have some constituents from my 
district, some students from Temple Samuel Orr in Kendall, and 
I have had the pleasure of visiting that temple several times, 
so thank you so much from the PANAM Organization for being 
here.
    I am pleased that we have such a distinguished panel of 
witnesses before us today. All of us look forward to your 
testimony. I would like to make special mention of the truly 
extraordinary effort made by one of our witnesses, Mr. 
Treadwell, because Thursday when he accepted our invitation to 
testify he was in New York. He was obligated to fly to 
Anchorage for an engagement yesterday that couldn't be changed.
    Immediately after he finished his duties there he headed 
for the airport, caught a plane and once again flew over the 
continent through the night, and he came straight from the 
airport to be with us today, so thank you, Mr. Treadwell. We 
appreciat<greek-l>iv deg.e <greek-l>of  deg.your effort, but I 
hear from you that your real sacrifice was to miss one of the 
best powder days for skiing today, so we thank you for that 
true sacrifice as well.
    Mr. Chairman, my congressional district in South Florida is 
vulnerable to hurricanes and tornadoes. As a result, I have 
paid careful attention to reports that the increasing intensity 
and frequency of natural disasters, including tornadoes, 
hurricanes, tropical storms, are linked to a change in our 
global climate, and there is further documentation noting that 
a change in our earth's atmosphere is currently affecting some 
of South Florida's most precious natural habitats such as our 
coral reefs.
    Several marine scientists have indicated that coral 
bleaching could be caused by changing atmospheric temperatures. 
This poses both a serious environmental and financial concern 
as our precious marine ecosystem and pristine beaches are major 
sources of economic revenue for our South Florida economy.
    For that reason, I have taken several proactive steps to 
increase awareness of this issue in Congress, including 
forming, along with my colleague, Congresswoman Lois Capps of 
California, the Bipartisan National Marine Sanctuary Caucus, 
but there is much work that needs to be done to better 
understand what has been termed as global climate change.
    Other countries are taking action to extend their control 
in the Arctic. Plans are being made to greatly increase the 
exploration and exploitation of natural resources, but our 
overall knowledge of the problem and its many components are 
still very limited. Extrapolating trends based on limited data 
is always a risky business. It is risky to act without adequate 
information and mistaking possibilities for inevitabilities.
    As it has recently received a lot of publicity and 
continues to be cited as proof of the need for urgent action is 
the National Intelligence Assessment on Global Climate Change 
released last year by the CIA. Too little mention has been made 
of its vague and tentative conclusions and its admitted lack of 
evidence.
    The NIA's authors openly admit that the factual basis and 
the models that they used were inadequate to the task that they 
face. Let me read some of the caveats by Dr. Thomas Fingar, the 
deputy director of the National Intelligence for Analysis and 
the chairman of the National Intelligence Council, included in 
his testimony last June at the hearing by the House Permanent 
Senate Committee on Intelligence and the Senate Committee on 
Energy Independence and Global Warming: ``Assessing the future 
of society's evolution will, by necessity, be a scenario-driven 
exercise and an imprecise science.'' ``From an intelligence 
perspective, the present lack of scientific understanding of 
future climate change lacks the resolution and specificity that 
we would like for a detailed analysis at the state level.'' And 
the last quote: ``Our analysis could be greatly improved if we 
had a much better understanding and explanation of past and 
current human behavior.''
    Mr. Chairman, we should take a sober approach resting on a 
solid body of evidence. The Directive on the Arctic issued on 
January 9 of this year offered such an approach. It laid down a 
comprehensive set of guidelines for U.S. policy in the region, 
covering international scientific cooperation, maritime, 
economic and energy issues, environmental protection and 
boundary disputes, among others.
    With this directive, U.S. national security interests in 
the region were defined, our determination to defend them made 
clear to the world and our future course mapped, but this is 
just a starting point. We have a responsibility to continue to 
identify current and long-range potential challenges and 
opportunities in the Arctic and take on the hard work of 
developing real world options to address these.
    To that end, Mr. Chairman, I look forward to the testimony 
of our witnesses today. Thank you, Mr. Chairman.
    Chairman Berman. I thank the gentlelady.
    Does anybody wish to be recognized for a 1-minute 
statement? The gentlelady from California, Ambassador Watson.
    Ms. Watson. Thank you, Mr. Chairman, and thank you for 
holding this timely hearing on the implications of the melting 
ice cap in the Arctic and the emerging Arctic frontier.
    The frontier offers new waterways and access to natural 
resources, such as oil, natural gas and even solar power. As we 
consider the next steps forming the U.S. Arctic policy, 
Congress must remember that the Arctic has been barely touched 
by humans. In this frontier we have the opportunity to behave 
conscientiously.
    Our policy toward the Arctic must preserve and protect the 
environment. We must strive to halt the diminishing number of 
polar bears and ensure the natural beauty of the Arctic tundra 
is not destroyed by new oil drilling projects.
    Mr. Chairman, I look forward to listening to the testimony 
of our witnesses, and I thank you again, and I thank the 
committee for its cooperation. I yield back the remainder.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 1 minute.
    Mr. Rohrabacher. Thank you very much. Mr. Chairman, this is 
an important hearing because there clearly is a change in the 
temperature in the Arctic areas of the world, and it will cause 
us to have to come up with new policies and how to relate to 
that.
    However, let me just note for the record that this has 
nothing to do with global warming. I have quotes that I will 
insert in the record at this point with unanimous consent from 
five major Ph.D.s from major universities from around the world 
suggesting that it has nothing to do with global warming.
    I would put that in the record here, Mr. Chairman.
    Chairman Berman. It will be included in the record.
    Mr. Rohrabacher. All right. Thank you very much. Also let 
us note there has not been global warming in the world for the 
last 8 years. There has been no warming, which is again 
certified by major universities throughout the world.
    If we have climate change, yes, there is climate change, 
but it is cyclical and we must deal with it. That is why this 
hearing is important. But to blame it on global warming, which 
means manmade global warming, is not the way to find some 
progress in this area.
    I appreciate that, Mr. Chairman. I also submit for the 
record quotes talking about how the changes in the Arctic are 
probably cyclical, and I would put those in the record as well.
    Chairman Berman. They will be included, and the time----
    Mr. Rohrabacher. Yes. Thank you.
    Chairman Berman. You will get those to us.
    [The information referred to follows:]<greek-l>FTR, 
Rohrabacher deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Texas, Mr. Green, is recognized for 1 
minute.
    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing today. I would like to welcome our panel. In addition 
to this committee, I serve on the House Energy and Commerce 
Committee, which will be responsible for moving legislation on 
climate change this Congress.
    The opening of the Arctic provides opportunities, as well 
as challenges, for all bordering Arctic countries, particularly 
when it comes to natural resources. U.S. Geological Survey 
found that the area north of the Arctic Circle holds an 
estimated 22 percent of the undiscovered recoverable resources 
in the world--oil, natural gas and natural gas liquids.
    Because of these discoveries, there are a number of 
territorial disputes in the Arctic as issues of territorial 
sovereignty and access to these resources are intertwined. As 
such, I think it is important that during these hearings we 
have the best way to settle these territorial disputes, 
including whether the U.N. Convention on the Law of the Sea is 
the best way to do it. Settling these disputes becomes a 
national security issue, along with other Arctic countries.
    Mr. Chairman, I know there is some concern about producing 
hydrocarbons up there, but the Russians will probably do it and 
the Norwegians are doing it already above the Arctic Circle. I 
yield back my time.
    Chairman Berman. The time of the gentleman has expired.
    Does anyone else seek recognition? The gentleman from 
California, Mr. Costa, is recognized for 1 minute.
    Mr. Costa. Thank you very much, Mr. Chairman, for holding 
this I think important hearing. I concur with my colleagues.
    As the chairman of the Subcommittee on Energy and Minerals, 
we take great interest clearly in the policy that is being 
considered today as we look at an overall effort to develop a 
comprehensive energy plan. The administration certainly has 
their proposal, and there are other proposals in the Congress.
    The area that we are talking specific to this hearing, the 
Arctic, is part of the Federal lands that are a part of our 
national heritage. They are also a part of our resources, and 
so the Subcommittee on Energy and Minerals, along with your 
committee and others, are currently working on what is the best 
overall policy as we contemplate how we should move forward 
with these very important resources that are part of our 
Federal lands, and I look forward to the testimony.
    Thank you very much.
    Chairman Berman. Thank you. The time of the gentleman has 
expired.
    And now I am pleased to introduce a very distinguished 
panel of witnesses that possess both breadth and depth of 
experience: Dr. Scott Borgerson is the visiting fellow for 
Ocean Governance at the Council on Foreign Relations and an 
adjunct senior research scholar at Columbia University's Center 
for Energy, Marine Transportation, and Public Policy.
    Before joining the Council, Dr. Borgerson was the director 
of the Institute for Leadership and an assistant professor at 
the U.S. Coast Guard Academy. Dr. Borgerson earned a B.S. from 
the U.S. Coast Guard Academy, as well as advanced degrees in 
international relations from the Fletcher School of Law and 
Diplomacy at Tufts University.
    Dr. Borgerson holds a U.S. Merchant Marine Officer masters 
license and is a principal of Rhumb Line LLC, an independent 
maritime consulting firm consulting in complex strategic 
projects, and I guess this is one. Dr. Borgerson was raised in 
Mr. Carnahan's district, Jefferson County, Missouri, where his 
family still lives.
    Dr. Robert Corell is the vice president of programs at The 
Heinz Center. He joined the Center as the global change 
director in December 2006. Dr. Corell is actively engaged in 
research concerned with the sciences of global change and the 
interface between science and public policy, particularly 
research activities that are focused on global and regional 
climate change.
    Before coming to The Heinz Center, Dr. Corell served as a 
senior policy fellow at the American Meteorological Society. 
Dr. Corell has also been an assistant director at the National 
Science Foundation and a professor and academic administrator 
at the University of New Hampshire.
    He is an oceanographer and engineer by background and 
training, having received a Ph.D., M.S. and B.S. degree at Case 
Western Reserve University and MIT.
    So, Dana, you have your Ph.D.s and we have our Ph.D.s.
    Mr. Mead Treadwell currently serves as senior fellow at the 
Institute of the North. His research at the Institute focuses 
on strategic and defense issues facing Alaska and the Arctic 
region, management of Alaska's commonly owned resources and 
integration of Arctic transport and telecommunications 
infrastructure. He was appointed to the U.S. Arctic Research 
Commission in 2001 and was designated chair of the Commission 
by President Bush in 2006. He also sits on the boards of 
several companies.
    Throughout his career in Alaska, Mr. Treadwell has played 
an active role in Arctic research and exploration. His focus 
has been on the development of natural resources, protection of 
the Arctic environment, and fostering international cooperation 
after the Cold War. In business and government, Mr. Treadwell 
has helped establish a broad range of research programs and 
technology, ecology, social science, and policy.
    I want to thank you all for coming. I want to thank you for 
putting up with us for an hour or so. And now, Dr. Borgerson, 
why don't you lead off the witnesses?

 STATEMENT OF SCOTT BORGERSON, PH.D., VISITING FELLOW, COUNCIL 
                      ON FOREIGN RELATIONS

    Mr. Borgerson. Thank you very much for the honor to be here 
today. The Arctic is an important issue for our country that we 
are just now waking up to, and my family in Festus, Missouri, 
from Congressman Carnahan's district, might seem far removed 
from the Arctic, but this is an issue of geostrategic 
importance to our country and its foreign policy that affects 
the entire nation and every district.
    I submitted my comments for the record. I will paraphrase 
them very briefly here, but first I will speak to the climate 
change driving the geopolitics, which Dr. Corell and Mr. 
Treadwell will go in to far greater detail.
    Then I think, Mr. Chairman, you stole my notes because your 
opening statement did an excellent job I think of framing the 
grandiose strategic issues and I agree with I think every point 
you said, and so I will end my testimony with specific 
recommendations for U.S. policy and issues that the committee 
might consider as it relates to the Arctic.
    So, first, whether the Arctic is melting because of global 
warming or not, I think there is scientific consensus that Dr. 
Corell and Mr. Treadwell will speak to. In the end it doesn't 
matter because the fact is the ice is melting. It is melting 
much faster than I think policymakers appreciate, and the 
models have been consistently overly conservative.
    They used to look at perhaps 2150. They keep moving up in 
terms of when the Arctic will be ice free in summer, and just 
the current projected trend lines, just extrapolating out from 
the pace it is melting now, the Arctic will be ice free in 
summer by 2013. That is soon, and our country is not prepared.
    Second, the state of international relations. I think you 
covered very well at the beginning Russia's approach to the 
Arctic, as well as the other Arctic coastal states. Washington, 
DC, I think, because Alaska seems so far away, forgets that by 
virtue of the Alaskan coastline we too are an Arctic nation, 
and the geopolitics of the Arctic, although we have been 
ignoring them for several years, are moving quickly without us.
    I think Russian foreign policy in general and actions in 
the Arctic should give pause to the United States and our 
allies, including Canada, which is a close NATO ally with 
troops committed in Afghanistan supporting our missions there, 
and I think that the Arctic is at this moment at a critical 
crossroads in its future.
    I think it could be one of international cooperation, the 
rule of law and peace, which we all hope it unfolds in that 
way, but I also think that there are all the ingredients for 
trouble. There are a tremendous amount of oil and gas 
resources. There are blurred lines of state sovereignty. Every 
border except for one has at least one significant area of 
dispute between the coastal states.
    Those have been sleeping dogs up to now, but with the 
dramatic climate change happening there the sleeping dogs might 
not lie, so let me use the bulk of my time to make specific 
policy recommendations that I think the Congress and this 
committee should consider.
    First, I think the overall spirit of the U.S. approach to 
the Arctic should be one of spirited diplomacy and wanting to 
cooperate and build this peaceful future for the region, but 
responsible statecraft also requires that we hedge as a nation 
and take certain actions now so as to protect our national 
security interests there.
    The NSPD HSPD released in the last week of the Bush 
administration I think was pretty good, and I give it a B+, but 
I think it fell short in three important areas, the most 
important of which it did not call for new funding for Coast 
Guard icebreakers. We have a geriatric fleet--one, the Polar 
Star, mothballed at a pier in Seattle--and compared with the 
resources of our other Arctic countries this isn't good enough.
    Second, it didn't prioritize all of our issues and 
interests in the Arctic, and that leaves the various agencies 
with interests there to work that out amongst themselves. I 
think that we need to give some guidance to the Federal 
Government and our interests there. Some of the issues that I 
have heard already in the statements this morning: What is our 
priority in the Arctic?
    And lastly, and I will speak to this a bit more because I 
think it relates to other policy recommendations. We have a 
special relationship with Canada, and I think that the policy 
really missed an opportunity to highlight that and where we 
might work collaboratively in the future Arctic.
    Second, the United States is far past overdue to join and 
accede to the U.N. Convention of the Law of the Sea. One 
hundred and fifty-six countries and the European community have 
joined this treaty, and we remain amongst a rather illustrious 
group of Libya, North Korea and Iran to have yet to formally 
join this treaty.
    There are strategic imperatives that I would be happy to 
get into if of interest during the questions after the 
testimony about why it is important to join this year. The 
Arctic tops that list, is at the top of the list at least, of 
why it is in our interest for national security, economic and 
environmental reasons to become formally a stated party to the 
treaty.
    Third, as mentioned in Canada, I think Ottawa--I know 
Ottawa--would be very receptive to the United States 
approaching it to cooperate on Arctic issues. We should not 
under appreciate how important the Arctic is to Canada. Indeed, 
it even speaks at the heart of what it means to be Canadian.
    There are a host of issues in which I think the Canadians 
would be open to collaborating with us to create a unified 
North American bloc on Arctic issues. I think it might make 
sense to present a grand deal where Canada gets much of what 
they want, we get much of what we want.
    Such ideas I think would include an Arctic Navigation 
Commission modeled on the St. Lawrence Seaway, unified 
regulatory standards probably adopting their Arctic pollution 
prevention regulations after our oversight so that we have a 
unified set of standards across North America, working as we do 
now in NATO and NORTHCOM, expanding our military cooperation 
and pooling our resources for the various maritime challenges 
that exist there.
    Next, climate change is important from a mitigation 
perspective, but we shouldn't lose sight of adaptation, which 
is really what is happening in the Arctic, so we need to reduce 
greenhouse gas emissions, whether that is a carbon tax, which I 
support, or a cap in trade plan for the country, but we also 
need a national adaptation plan, and I think Alaska gives us a 
lot of lessons to learn in which we might model. We have heard 
from other districts where adaption to climate change is 
important.
    In the spirit of enthusiastic diplomacy and cooperation, I 
think the world, the community of nations, is ready for an 
invigorated foreign policy. We are stepping out in this in 
other areas of the world. The same should be done in the 
Arctic.
    I heard from Congressman Ros-Lehtinen the idea of marine 
sanctuaries. The United States just created several huge ones 
in the Pacific. I think there is an opportunity to do the same 
at the North Pole, two degrees of latitude, for a polar park 
dedicated to science, and I would be happy to speak further on 
those ideas, a mandatory polar code for shipping regulations 
and other information sharing on ice conditions and so forth 
with our Arctic neighbors.
    Last, and I think Mr. Treadwell will also speak to this, 
but in the Lower 48 we shouldn't lose sight of all of the 
Americans and patriots who live in Alaska, the indigenous 
communities who are there, who are ready to help our country 
respond to this change.
    We should remember them both in the adaptation that they 
are facing with the change in the Arctic, but also think of 
them as a resource as they are now in places like the Barrow 
Arctic Science Consortium or the First Alaskans Institute.
    I think whether it be to augment search and rescue or even 
learn from their experience that they have a lot to offer our 
country as we determine our foreign policy in this important 
region.
    Thank you.
    [The prepared statement of Mr. Borgerson 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much.
    Dr. Corell.

STATEMENT OF ROBERT CORELL, PH.D., VICE-PRESIDENT OF PROGRAMS, 
                        THE HEINZ CENTER

    Mr. Corell. Thank you very much. I compliment you, sir, 
both on calling this hearing, as well as your very 
comprehensive opening remarks.
    Much of what I will say has been drawn from major 
scientific assessments, recent peer reviewed literature, 
because things in the Arctic are changing extraordinarily 
rapidly, and the summary at the top of my submitted documents 
sort of summarize that the things are happening in the Arctic 
very rapidly, and over the next 100 years we are going to see 
changes across the full range of interests for our country from 
major physical, ecological, social and economic developments, 
and those will have major impacts around the world.
    On page 3 there is a slide that shows something that has 
been published only recently and follows up on the fourth 
assessment of the IPCC. That diagram shows the worst scenario, 
the red line, and that in 2007 we are statistically above that 
already, so things are moving much more rapidly, and that is on 
a global scale.
    The IPCC and the Arctic Climate Impact Assessment make it 
clear that the warming is unequivocal and that the CO<INF>2</INF> 
concentrations we are seeing now exceed anything in the last 
650,000 years, so this worst case gives us pause and worry.
    On page 4 I showed a small, little cut from the IPCC that 
indicates the scale at which the North American continent is 
likely to see warming over this century, and that is based on 
what we would call a midrange scenario. You can see that it is 
between three and seven degrees toward the end of the century. 
In fact, it shows there at 2050.
    The reason I put this in here is this is drawn from a whole 
series of model runs, each of which has different ways of 
implementing the physics and chemistry, but all with a goal of 
projecting into the future, and that green bar is the pathway 
and the statistical range at which the planet would occur if it 
had not received the bulk of the greenhouse gases that have 
been put into the atmosphere in the last 50-100 years, so it 
gives you some idea that it is very difficult to project the 
future without seriously giving credence to the addition of 
greenhouse gases.
    Here I want to talk about several things: The sea level 
rise issue, reduction of sea ice in the Arctic Basin and then 
take a look at one of the things very important to our nation, 
fisheries in that region.
    On the sixth page of the testimony it gives you some sense 
of what is happening to Greenland, and the reason I used 
Greenland is that it is a place at which the meltwater does 
contribute significantly to sea level rise.
    We know that 100,000 years ago we had a warming somewhat 
comparable to what we have today. In fact, it peaked out at 
only a degree more than we have at the moment. Many of the 
projections, virtually all of the projections, suggest that on 
the current path we are going to exceed that one degree.
    During that time we had between 2\1/2\ and 3\1/2\ meters of 
sea level rise over several hundred years, so this is a serious 
source of sea level rise conditions, but we have to give 
credence to the fact there are two reasons for sea level rise. 
One, it is just the warming of the ocean, the expansion of the 
water, and to date most of the sea level rise we have seen has 
come from that, but during this century that will be overtaken, 
we believe, by meltwater from glaciers such as Greenland.
    On the fifth page I show you what one level of sea level 
does to the region around New Orleans, pretty devastating as 
that depicts, but on an international scale Nichols and 
Leatherman that one meter of sea level rise will affect 6 
million people in Egypt with a reduction of some of their 
agricultural lands, as much as 15 percent.
    Thirteen million people in Bangladesh, major loss of rice 
production and 72 million people in China with tens of 
thousands, so there will be as sea level rise reaches these 
lowlands a major, major effect on things like food supply. I 
only point that out here because it is in that context that 
foreign policy issues will come to the fore.
    Then we talk about what is happening in the Central Arctic 
Basin. You mentioned it and others have made note of it, and on 
the eighth page, or I guess it is the fourth page, you will see 
two pictures that I think give you some sense of what is 
happening. The melt rate up there far exceeds anything, and it 
is noted already that we might see an ice free summer certainly 
in the decade ahead.
    The ice cover here in 2007 is roughly one-half of what it 
was in 1950, and the lower picture gives some credence to the 
idea that the seaways that are so important to many of the 
nations, including ours, who reside here in the north are 
opening up.
    In 2007 and 2008, the Northwest Passage opened up for 2 
weeks. According to the Canadian Ice Service, that is a brand 
new development. You can see in that image that on the Russian 
side there is wide open waters for a far longer period and over 
a much larger extent than in Canada.
    If we look at the fisheries issue just very briefly, one of 
the things that happens when the water warms is the fish seek 
new ecological niches, and I just suggest in the next picture 
that is on page 5 of the testimony what is happening just to 
the cod fishery in the northeast part of the Atlantic.
    You can see two things happening. Capelin are the 
feedstock, and the feedstock do go through cyclical behavior, 
but overall the feedstock is moving north and depleting, and of 
course that is going to have a direct impact on the 
productivity of the northeast cod that is so important to many 
fisheries, including our own.
    There was mention made of the study by the National 
Security Committee, but I would also suggest looking at the CNA 
report. Eleven flag officers of the United States military have 
produced what I consider a seminal report, and they report that

        ``Projected climate change poses a serious threat to 
        American national security. The predicted effects of 
        climate change over the coming decades will produce 
        extreme weather events, droughts, flooding, sea level 
        rise, retreating glaciers and so forth.''

    It is a very good report, and I am sure it is at your 
disposal, and at some time General Sullivan and others would be 
more than willing to talk to you.
    Then turn to the opening of the seaway. The Arctic Council, 
as you mentioned, is active in this arena and has appointed a 
study of the opening of the seaways as a consequence of the 
melting, that there are some of the pathways that are likely to 
be open and that the primary driver for this will in fact be 
natural resource development.
    There are going to be major interests in oil and gas, hard 
minerals, tourism, fishing and even potable water and that the 
marine maritime industries are going to be the key stakeholders 
in this regard.
    It was mentioned also, and you can see in this picture at 
the bottom of page 7, where much of that quarter to a third of 
the known reserves reside, and it is mostly in Russia, and it 
is in our best interest I think to include that perspective in 
our discussions with our colleagues from Russia because most of 
that oil and gas development will have a long-term impact on 
our energy interests.
    Chairman Berman. Dr. Corell, I think if you could just----
    Mr. Corell. Yes. I just want to conclude by noting that 
there has been major interest in the governance issues over 
time.
    A team of individuals from all of the eight Arctic 
countries have been assembled and supported by six foundations 
from the United States and elsewhere to study the governance 
issues and over the 18 month period try to get a landscape of 
that documented so that you and others will have at your 
disposal a broad insight of the kinds of issues that are being 
raised from every source from complete, new treaty arrangements 
to others where we should be basing our action on existing 
arrangements.
    Thank you.
    [The prepared statement of Mr. Corell 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you.
    Mr. Treadwell.

 STATEMENT OF MR. MEAD TREADWELL, SENIOR FELLOW, INSTITUTE OF 
                           THE NORTH

    Mr. Treadwell. Thank you, Mr. Chairman, and I would like to 
thank your colleague also for recognizing the travel that got 
me here.
    Let me just start out by saying as a resident of this 
region of Alaska it is the same distance both ways, and I would 
like to invite you to come up and see this yourself at some 
point. Thank you for the opportunity to be here today.
    In my written testimony I talk about the Arctic's role in 
national security today, especially the role in the military 
defense of our nation and in the energy security of our 
country. I talk about the changes, some of which you have heard 
about from my colleagues on this panel, and what caused us as a 
commission to call on the White House and the Government to 
revise Arctic policy, which had not been reviewed since 1994.
    Then the testimony will talk about six tasks in science and 
diplomacy that we have before us coming out of this policy that 
I wanted to emphasize. I also talk about the important role of 
international cooperation in Arctic research.
    This is a small neighborhood at the top of the world, and 
we cannot do the job that you ask us to do--to get good climate 
information, for example--without very strong cooperation with 
other Arctic nations.
    Finally, I would address a little bit the Arctic treaty and 
the overall Arctic governance issues that were discussed 
before.
    Since the late 1800s when the Naval Arctic Research 
laboratory was built in Barrow to this very week when a camp on 
the Beaufort Sea ice north of Alaska is helping to improve U.S. 
submarines' capabilities in the Arctic Ocean, national security 
has been a major driver for Arctic research. Defense programs 
dating back to the Cold War have been major collectors of ocean 
and atmospheric data, and our strategic communications needs 
have driven close to a century's work on understanding space, 
weather and the magnetosphere.
    Today, the Arctic region plays a major role in air defense, 
training and global logistics for our armed services. Our 
assets in polar orbit and ground stations in the north support 
our nation's intelligence capability and secure military 
telecommunications. Ground based missile defense, accompanying 
radars and test beds are stationed in this region in order to 
get the best shot at attacking missiles.
    As an alternative to the Panama Canal, the Arctic Ocean 
offers the Navy a money-saving way, under cover of water and 
ice, to quietly move submarine assets between the Atlantic and 
Pacific Oceans. The Arctic may also in time serve as a venue 
for surface military sealift. That is the current role of the 
Arctic in national security on a military basis.
    In energy security it is also significant, and I think the 
point made in some of the opening statements is clear. Not only 
do you have the 22 percent potential number discussed by the 
U.S. Geological Survey this summer, but if you take a look at 
the impact of energy development on the economies of Arctic 
regions:
    Alaska, 93 percent of its budget comes from oil 
development; Russia, something like 22 percent of its GNP comes 
from Arctic oil development; Norway, a significant number; 
Iceland, from geothermal and hydro development something like a 
quarter of the nation's exports; Denmark, Denmark's Greenland, 
essentially needs to have economic sufficiency for 
independence. So the issues of energy security in this region 
will be significant for some time to come.
    But it was all these factors of change that you have heard 
about that led the Commission to formally recommend the White 
House initiate a review of policy, and that resulted in the 
Presidential directive released January 9 of this year.
    Whatever differences may have existed between former 
administrations and the current one on Arctic, climate or 
security issues, I believe that policy has broad, common 
objectives in the north that we can all agree upon. Since the 
early 1990s when Arctic cooperation began, through several 
administrations----
    I was dispatched by our governor at one point to visit the 
White House to say we will go along with you on international 
cooperation if we make sure that you keep Arctic residents 
involved and don't try to impose rules on us, but work in 
partnership with the people in the Arctic who are very 
interested in self-determination. That kind of consultation 
with the State Department continues, and I think it is a 
tradition that we should all be very proud of.
    Now, this policy reflects a reality on global economic, 
energy, transport and security issues. The Arctic matters. 
Arctic assets feed our nation, they fuel our nation, they 
supply our nation and they defend our nation. Features in the 
Arctic from reflective sea ice to carbon storing forests and 
permafrost moderate our climate.
    We are just beginning to understand the region's unique 
ecosystems that produce half the fish consumed by the United 
States. The Arctic's unique, hardy and resilient human cultures 
enrich our life on earth. In the face of Arctic change, these 
people and the critters need our help.
    We have an opportunity to exercise great leadership now in 
the Arctic region. Let me lay out some of the things in the 
policy that are the homework before us for both scientists and 
diplomats.
    In global climate change you know we are all headed toward 
trying to revise the Kyoto Protocol in Copenhagen in December. 
The point I would like to make about the Arctic is that the 
Arctic is not only an aggrieved party experiencing very quick 
climate change, but it is also beginning to experience 
feedbacks, which makes us a large contributing party to climate 
change.
    You spoke about the methane releases in your opening 
statement. In my testimony I include an email from Katy Walter, 
one of the world's leading experts on outgassing of methane in 
the Arctic. Today there are 5-10 teragrams of methane per year 
emitted in the Arctic, and that is about 125-250 million metric 
tons of CO<INF>2</INF> equivalent. That is about equal, Mr. 
Chairman, to the transportation emissions from the whole State 
of California. That is very large.
    The Arctic Science Summit Week, a convention of scientists 
meeting this week in Europe, had a presentation by Professor 
Hajo Eicken, who is working on some statistics to show what is 
the heat effect of losing that sea ice, of losing the 
reflectivity into space.
    My point is this: Because of that science, mankind cannot 
build an effective regime to limit its own emissions without 
understanding the emissions coming from natural sources in the 
Arctic. We have to have a very strong monitoring program.
    I worked with Dr. Corell when he headed the Arctic Climate 
Impact Assessment, and I am very happy that the nations are 
working together to have a good monitoring system following the 
impact assessment, which he chaired. That is a very important 
science objective that this Foreign Affairs Committee I hope 
will follow.
    On sovereignty, Dr. Borgerson has talked about the vast 
undersea lands and resources at stake. The point I will leave 
with you today: We have worked as a Commission to get the 
research going on for the United States to make a claim. The 
claims off all our coasts could be larger than two Californias.
    It is time to resolve their dispute over Law of the Sea in 
the U.S. Congress and time to resolve the sovereignty issues 
with our neighbors in the north. An accessible Arctic demands 
this happen, and it is very important that we do this before 
the world shows up at our doorstep.
    I would only say to you as chair of this committee that 
while the ratification of the Law of the Sea is a Senate 
matter, implementation of the law, including such issues as 
Article 234 where we extend international regulations, is 
something that may yet come before this committee.
    On biodiversity, the United States shares responsibility 
for Arctic fish stocks, marine mammals and migratory birds with 
several other nations, notably Canada and Russia. I can report 
that management of these species is hampered because essential 
scientific exchange is weak, underfunded and too often ignored 
or shouldered aside by larger diplomatic issues, especially 
between us and Russia.
    I cannot stress how important it is to build better 
scientific cooperation with Russia. Without it the scientific 
community cannot deliver the data and the knowledge the world 
needs.
    One issue in this respect, and an important one with Law of 
the Sea. The United States is pressing Russia for greater and 
more predictable access to their waters for Arctic research, 
and, as their claim toward the North Pole grows, 45 percent of 
the Arctic Ocean, our scientists may not be able to take even 
the most simple bottom grab samples there without Russian 
permission. Eleven of the last 13 requests we have had for ship 
access to those waters have been denied, so that is a very 
important issue.
    On shipping, the status of the Arctic Ocean today----
    Chairman Berman. Mr. Treadwell, just if you could conclude?
    Mr. Treadwell. I will resolve very quickly, sir. I just 
wanted to say that shipping is open to ships of any nation, 
whether or not those ships are prepared, and some kind of 
international regime, starting with IMO, is contemplated by the 
policy.
    I concur with Dr. Borgerson's idea that we need to work 
also on an investment vehicle, something like the St. Lawrence 
Seaway, to address that issue. Shipping should be safe, secure 
and reliable.
    I have spoken to energy and security, and I guess my last 
point is that as we look at the idea of an Arctic treaty I 
think you should consider it really as an Arctic partnership. 
The eight nations of the Arctic Council work very effectively 
together to do this.
    Rather than imposing rules from outside, I think we should 
work with the eight nations and the aspirations of the people 
who live in the Arctic to help them do what they want to do, 
which is to live sustainably and contribute as they do now in a 
very significant way to the affairs of the world.
    Thank you very much.
    [The prepared statement of Mr. Treadwell 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, and I thank all of the 
witnesses. Very fascinating stuff.
    I am going to yield myself 5 minutes at the beginning to 
start with a couple of questions, and then we will go around 
the committee.
    The Law of the Sea--Dr. Borgerson briefly touched on it. 
Mr. Treadwell spoke a little bit about it. Russia made a claim 
regarding the extent of its continental shelf that was rejected 
in 2001. Norway has now made its own submission to the United 
Nations under the Law of the Sea. It is expected that more 
countries will make claims in the next few years.
    If the United States continues to delay accession, what 
happens to U.S. claims if the United Nations accepts the claims 
of other Arctic countries? How would becoming a party to the 
treaty help the United States better manage resources in the 
Arctic? Any or all of you.
    Mr. Borgerson. The portion of the Convention that it 
directly speaks to is Article 76, which is about extending 
continental shelves.
    There is a commission established that oversees such 
claims. You mentioned Russia's earlier submission where they 
were sent back to collect more geological evidence, which 
ostensibly their flag planting mission last year was to 
support, although it had tinges of sovereignty.
    The issue as it relates to the United States, and it is the 
ultimate irony I think in the Law of the Sea debate, is instead 
of not sacrificing our sovereignty by becoming a state party to 
the Convention, we are actually giving up sovereignty because 
we have no standing in this Commission; not just in the Arctic 
but elsewhere on the coast. We could claim additional territory 
that holds valuable resources as large as half of the Louisiana 
Purchase.
    So the United States does not have a literal seat at the 
table at the Commission to either oversee other claims that are 
coming in, and I would add that based on when other states join 
the Convention a procedural clock began ticking when they must 
make their claim.
    There is a huge influx of claims that are coming--26 this 
May--in which the United States can't participate in an 
oversight process, nor despite the fact that the State 
Department is overseeing collecting the evidence for what our 
claim might be, which in the Arctic it is considerable, nor can 
we formally submit our claim before the Commission.
    So there are many other areas in which the Law of the Sea 
is relevant to the Arctic where I would be happy to go into 
further detail, but as it relates to claims on the extended 
continental shelf the United States does not physically have a 
seat at the table. It cannot participate in the institutional 
process that the Law of the Sea creates.
    Chairman Berman. Any of you, either of you, have something 
to add? Mr. Treadwell?
    Mr. Treadwell. Thank you, Mr. Chairman. I agree with what 
Dr. Borgerson has said.
    I guess I would also add this: If you look at the dispute 
in the U.S. Senate on ratification of the Law of the Sea it 
doesn't really have very much to do with the Arctic. The 
concerns that the military had had have been addressed by the 
Joint Chiefs of Staff. I can recommend the experts to you who 
have looked at that issue.
    One of the issues really comes down to what is customary 
international law and how will environmental regulation be 
forced on the United States by signing on, and I think that is 
an issue which when I mentioned that the committee can work on 
implementation can make it very, very clear how we sign a 
treaty, but we don't sign onto things that you as the Congress 
haven't had a chance to consider under the law. And so 
implementation, that discussion, may end up helping solve the 
ratification debate.
    I should also say that by being part of the----
    Chairman Berman. Are you suggesting the implementation 
discussion should start before the ratification decision?
    Mr. Treadwell. I think if you look at the reports of the 
Senate Foreign Relations Committee they have certainly 
discussed how some of the questions raised by the opponents 
could be dealt with, but some of them could be iced down, I 
guess is the best way to put it, with an implementation 
discussion first.
    There are a couple of very pregnant issues in the 
implementation that----
    Chairman Berman. I mean, does the treaty give sort of a 
national treatment opportunity for----
    Mr. Treadwell. Some very simple questions that ultimately 
Congress would probably deal with. Once we get all this extra 
land, how do we manage it? A simple question.
    One of the questions is Article 234. We have the right to 
extend environmental regulation outside the 200 mile limit in 
traditionally ice covered waters. How are we going to do that?
    Chairman Berman. Dr. Borgerson wanted to just jump in on 
this.
    Mr. Borgerson. Sure. I think you should think of the 
strategic imperative for the U.S. acceding to Law of the Sea in 
three general baskets: National security, economic and 
environment. Extending the continental shelf speaks to the 
economic, but we are sort of mixing baskets here.
    Also in the Arctic specifically, but for U.S. foreign 
policy and national security strategy overall, specific things 
in which the Convention supports. For example, the United 
States and Canada disagree on the status of the Northwest 
Passage, one of the key shipping routes. We say it is an 
international strait. They say it is internal waters.
    We are now party to the Law of the Sea and those 
discussions. We can't seek the arbitration settlements
    Chairman Berman. It has a dispute resolution mechanism.
    Mr. Borgerson. Which we would chose as arbitration, and no 
other dispute resolution can be forced upon us.
    Chairman Berman. I have to tip over the basket, all the 
baskets, because my time has expired.
    Mr. Borgerson. Okay.
    Chairman Berman. The 5-minute limitation is unfortunately a 
limit on both the questions and the answers.
    The gentlelady from Florida, the ranking member, Ms. Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Since I 
am here for the duration and some of our members have pressing 
duties, I would like to yield my 5 minutes to my good friend, 
Mr. Inglis of South Carolina.
    Mr. Inglis. Thank you. I very much thank the gentlelady 
from Florida for that opportunity. Very kind of you.
    I am somewhere between science and foreign affairs on this 
question, literally actually, because I am between two 
meetings. So perhaps this sounds a little bit too scientific or 
maybe a little bit too much into economics, but I wonder if you 
might want to comment on a possible solution that does involve 
international cooperation when it comes to dealing with climate 
change and the national security risks that we are running?
    There has been a lot of talk about cap and trade. The 
problem with cap and trade is this is a huge tax increase in 
the midst of a recession. Very few economists would support 
that. It is also true that a system of trading credits seems a 
little bit disfavored in today's headlines with Wall Street. 
Perhaps they could turn them into derivatives and have 
derivatives of carbon credits?
    So we need something a little better. The better that I am 
hoping we can get to is a revenue neutral carbon tax. We 
actually reduce taxes somewhere else. This is leading up to a 
foreign affairs question soon. You reduce taxes on something 
else like payroll, and then you increase taxes or put a tax on 
carbon emissions.
    The result would be no net increase or take to the 
government. The government doesn't get any additional revenue. 
It is revenue neutral so it is not a tax increase, but it would 
send price signals to change behaviors.
    Here is the key foreign affairs kind of angle. I would like 
to figure out a way, and we are working, striving mightily to 
figure out how this would work: A WTO compliant way of applying 
that transparent tax to goods imported, as well as domestically 
produced.
    I am wondering if any of the countries that we are 
discussing here, what might be their reaction or how open might 
they be to that sort of cooperation, in a transparent system 
that would hopefully make it so that is workable? Anybody have 
any thoughts about that?
    Mr. Corell. I think you are raising some really exciting 
ideas to explore how we move from where we are to come to grips 
with this reality. We have been talking with a number of 
nations, China included, on how to come to the COP15 meeting in 
Copenhagen.
    The thing that keeps coming back is not the details of how 
the United States responds, but that the United States responds 
in a very constructive, positive, clear, forward moving way. 
Then these other countries are going to say okay, now it is 
time for us to think about how we respond. We have had 
conversations of that nature with industry and other folks in 
China and elsewhere.
    So they are looking for a strong signal without saying what 
the United States should do--you know, you have to do X, Y and 
Z--but that the United States will play seriously at levels 
that address this climate change issue in a very constructive 
way as we move toward COP15.
    The converse is that if that is not likely or if that does 
not happen, the word I am hearing in our discussions is that 
COP15 is going to be a very difficult time.
    Mr. Borgerson. I would follow up maybe with just three 
quick points. We all looked at each other to see who might 
answer this because tax is we know such a popular word in this 
town.
    But economists I think will tell you that a tax makes the 
most sense. It allows the market to work most efficiently. 
There is all kinds of problems that come into play within a 
complicated cap in trade system in terms of how that is 
administered, who gets credits, how the money is spent, et 
cetera.
    The point I want to make though quickly is you shouldn't 
think of this in a vacuum. It is also part of energy security, 
and so the two have to be thought of together, not alone, 
especially as it relates to China. China produces carbon 
intensive goods and you tax them, or we reduce our emissions 
and China's emissions actually go up and they are buying oil 
from countries that aren't necessarily our allies. That is a 
convoluted problem.
    Second, we are starting to mix things here as it relates to 
the Arctic because much of the Arctic is about adaptation to 
climate change, not mitigation, which again speaks to the need 
for a national adaptation plan.
    Lastly, whatever the United States does it is going to have 
zero credibility when we go to Copenhagen to try and discuss an 
international solution to this problem unless we have gotten 
our own house in order.
    Mr. Inglis. Thank you, Mr. Chairman.
    Mr. Treadwell. Mr. Chairman, I would only add one thing, 
which is in the research end in the Arctic we are helping to 
continue the sectoral approach.
    Just one example. If you raised the cost where somebody is 
already paying between $10 and $30 a gallon for diesel fuel in 
an Alaska bush village, raising the tax may not necessarily 
help the problem, but that is a great laboratory to look at 
alternative energy, so there is that kind of option.
    Chairman Berman. The time of the gentlelady has expired, 
and the gentleman from American Samoa, whose subcommittee has 
jurisdiction over a variety of the issues that we are touching 
on here, Mr. Eni Faleomavaega, is recognized for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman, for calling this 
hearing and especially welcoming personally also our 
distinguished members of the panel.
    In reading your testimonies and understanding your concerns 
and some of the problems that have been raised, it seems that 
everything centers on whether or not we participate as a member 
of the Law of the Sea. This treaty has been around for years. 
One hundred and fifty-six countries now participate. They are 
carving up all different regions of the world, touching on the 
questions of the Law of the Sea.
    I realize also I think the main concern the Senate seems to 
have over the years in its deliberations and nonratification of 
the treaty is losing our sovereignty. I am just concerned. How 
long are we going to continue saying that for fear we are going 
to lose our sovereignty these other countries are just having a 
field day doing what we are doing?
    Exactly a prime example is the Arctic. As all of you have 
said, it is the least explored, least understood. Potentials 
for energy resources are just beyond belief.
    I just wanted to ask Dr. Borgerson and Dr. Corell and Mr. 
Treadwell. Please help me. Define a little more why is it that 
the Senate has been so concerned that we should never become a 
member of the Law of the Sea Convention? Please.
    Mr. Borgerson. I am actually finishing a report now from 
the Council that speaks to that, which I would be happy to----
    Mr. Faleomavaega. Could you submit a copy of that to my 
subcommittee? I really would appreciate that.
    Mr. Borgerson. Absolutely. A small minority has 
procedurally opposed the United States acceding to the 
Convention, even though an overwhelming majority of 
constituents who don't ever agree on anything together agree 
that it is in the interest of this country to join the Law of 
the Sea.
    President Bush and President Clinton, the National Security 
Council, the Joint Chiefs of Staff, the head of the Coast 
Guards and Navies, every major industry group, environmentals, 
offshore energy companies who benefit from this. Everyone is in 
agreement it is in the interest for the country to join this.
    So at the moment now it is a procedural issue that Chairman 
Kerry has to in the new Congress report out on the Convention, 
and then it is up to the Senate Majority Leader to schedule 
Floor time for debate and vote for the U.S. Senate to finally 
join.
    In the Arctic specifically there are many issues in those 
three baskets, and I am not sure time allows to go into all of 
them deeply, but I will address them quickly. I have mentioned 
the Canadian Northwest Passage already. The same is true for 
our rights of innocent passage and our naval mobility not only 
for our naval ships, but also for commercial ships and those of 
our allies on which our economy depends.
    From an international perspective, the United States is an 
island, and 90 percent of our imports and exports are carried 
by sea. The Bering Strait will become a choke point like Hormuz 
or Malacca. The Law of the Sea establishes rules for managing 
that.
    From an international perspective, it establishes the 
governance framework for all commercial uses of the oceans, not 
just oil and gas, but others as well, and from an environmental 
perspective it really establishes the framework by which 
countries can collaborate.
    And we haven't even gotten into issues such as ocean 
sedification and collapsing fishing stocks and issues of 
extraordinary significance to this country that the Law of the 
Sea speaks to. I think it shows why the United States was so 
quick to sign onto a follow-on fisheries agreement.
    I guess I will end with just a brief snapshot of history. 
The reason why we didn't join the Convention originally and why 
President Reagan opposed it were because of provisions that 
were related to deep seabed mining, and those were all 
corrected by the international community in the 1994 agreement 
on implementation to all of our concerns as President Bush and 
President Clinton have submitted for the record to the Senate.
    The international community changed this Convention to meet 
our concerns, and we still have yet to join it even though it 
is hurting our national security, economic and environmental 
interests around the world, especially in this geostrategic 
region of the Arctic.
    Mr. Faleomavaega. I am sorry, but I only have 47 seconds 
left.
    Dr. Corell, you say that raising the sea level one meter 
causes tremendous damage, and I am talking about low lying 
islands. Can you comment on that for the number of seconds I 
have left, the climate change and the problems that we are 
faced with that?
    Mr. Corell. The one meter sea level rise is going to in 
your part of the world be devastating. As you well know, many 
of these countries have total relief of just a meter or two or 
three.
    It is not only just topographical. As the sea level rises, 
it comes to parts of the land that have not been hardened by 
storms. They are soft, and they will go much more rapidly. So 
great sympathy for the concerns in your part of the world and a 
lot of the other lowlands where one meter of sea level rise, 
which we really do expect this century.
    Mr. Faleomavaega. Thank you.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me ask you. We were talking about the changes in the 
Arctic, which are the basis of our discussion today. In the 
1940s, were the summers ice free in the Arctic as well, this 
ocean? Is this something in the 1940s that we experienced 
before?
    Mr. Corell. There is no record of it being ice free in the 
summer of 1940.
    Mr. Rohrabacher. In the 1940s.
    Mr. Corell. Yes. In that region, no.
    Mr. Rohrabacher. Okay. So there wasn't a warming in the 
Arctic area during the 1940s?
    Mr. Corell. The Northern Hemisphere during the 1940s, '50s 
and '60s actually had a relative cooling.
    Mr. Rohrabacher. Yes. I am talking about the Arctic now.
    Mr. Corell. Yes. Right.
    Mr. Rohrabacher. So there was no warming in the Arctic in 
the '40s. I am just checking because there are some things 
people have told me. You are saying that is not accurate.
    But there was a warming 1,000 years ago. I mean, Greenland 
was green. That wasn't just some name that they gave it to fool 
people?
    Mr. Corell. That is correct.
    Mr. Rohrabacher. And at that time----
    Mr. Corell. No.
    Mr. Rohrabacher [continuing]. Was the ocean ice free? Was 
there that much warming?
    Mr. Corell. No.
    Mr. Rohrabacher. No?
    Mr. Corell. There was not that much warming.
    Mr. Rohrabacher. Okay.
    Mr. Corell. We did have two periods in the last 10,000 
years that we had some relative warming, but they were less 
than one degree, the Mesopotamian period and what we call the 
Medieval Warming.
    Mr. Rohrabacher. Right.
    Mr. Corell. Right after that we had about a degree of 
cooling, and we went into a little ice age.
    Mr. Rohrabacher. Right. And so the mini ice age ended 
around the 1850s, which is about the time that people claim 
that we should be concerned that it has gone up a point since 
1850.
    With that said, in the last 8 years--not talking about the 
Arctic, but in the last 8 years--every scientist, and I am on 
the Science Committee, that I have heard, and I have reviewed 
this, claims that there has been no warming in the last 8 years 
as verified by some of the quotes that I gave from various 
sources originally in my original statement.
    In the last 8 years if there has been a major increase, Dr. 
Corell, as you have stated, in CO<INF>2</INF> why is it that if 
it is the CO<INF>2</INF> why do we now have no warming, yet 
there is a major increase in CO<INF>2</INF>?
    Mr. Corell. There is no one that is claiming that the 
warming we are seeing is 100 percent from greenhouse effect.
    The IPCC makes it very clear that the predominant factor in 
the warming, even in the last 8 years, has been from fossil 
fuels and from the burning of the tropical forests. Tropical 
forests contribute about 20 percent of the CO<INF>2</INF> in 
the atmosphere. The other 80 is coming from fossil fuels.
    Mr. Rohrabacher. Not the burning, but the actual tropical 
rainforests themselves emit these greenhouses gases, do they 
not, in the blotting of the woods?
    Mr. Corell. Yes, but the actual burning of them----
    Mr. Rohrabacher. Yes.
    Mr. Corell [continuing]. Is what contributes this 20 
percent of the CO<INF>2</INF>.
    Mr. Rohrabacher. Yes.
    Mr. Corell. Buried in here, Congressman, is very simply our 
natural variabilities, but the predominance of the warming we 
are seeing from every study that we have indicates even in the 
last 8 years----
    Mr. Rohrabacher. Yes.
    Mr. Corell [continuing]. Has been augmented by fossil fuels 
and clearing.
    Mr. Rohrabacher. Let me note there has been no warming in 
the last 8 years.
    Mr. Corell. Well, IPCC unfortunately would disagree with 
you.
    Mr. Rohrabacher. No. That is not the case. Some of the 
people who I have quoted in this actually were part of that 
study.
    But let me just note I don't know anybody who now is 
suggesting the last 8 years has been warming, but with that 
said you have used the word climate change all the time now. 
You are not using the word global warming anymore.
    Why is that? Because there is no global warming, and you 
know when you talk about that with your colleagues it is tough 
to defend.
    Mr. Chairman, let me note this. Let me note this, Mr. 
Chairman.
    Chairman Berman. That was a rhetorical? Okay.
    Mr. Rohrabacher. Yes, it was. I am a surfer, and I 
understand that you can see there are natural powers at play.
    Chairman Berman. You just want more room to surf.
    Mr. Rohrabacher. When you have a wave coming at you, you 
find ways, like we say, of riding the wave. In this particular 
case what are panelists are suggesting, which I think is 
correct, we need to look at the wave and try to make sure we 
adapt ourselves to what is going on.
    But for us to have the arrogance to think that we caused 
the wave, that we are the ones who are creating this change in 
the weather that seems to be happening--now it is cooling, it 
is warming--I don't think it is productive, and it leads us to 
increased taxes on our people and hurt their way of life rather 
than just looking at these as natural occurrences.
    Thank you very much, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from Texas, Ms. Sheila Jackson Lee, is 
recognized for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. It 
gives me always comfort to come after my good friend from 
California because I missed the eclectic excitement of being a 
science major, but in the practice of law and the study of law 
there is one premise that we operate under is certainly the 
issue of facts. Certainly there is also the question of 
precedent.
    I believe that we have established sufficient facts for at 
least the premise that we have something going on that 
evidences itself in climate change and global warming, and the 
visibleness of it is from a number of codels, congressional 
delegations, that have gone to places like Alaska, places in 
the Arctic region, traveling in European nations that have 
typically had snowcapped mountains and certainly seeing the 
rough array of climate and weather changes, if you will, for 
our own nation.
    So I think that in the issue concerning the question of 
national security, any form of disruptiveness can undermine 
governments. We saw some results--it wasn't a national security 
issue, but who knows if we had had all of our attention or 
misattention to Katrina what other crisis could have developed 
as we were focusing on what is a natural disaster.
    So let me try to deal with those of you who are making the 
point that there is an intertwining of these particular issues 
and whether or not you think that this is an issue that should 
permeate the Congress. Whether you are on Homeland Security, 
whether you are on Foreign Affairs, is this an issue for our 
Armed Services Committee both in the House and the Senate which 
addresses those questions? Is it an issue for the Intelligence 
Committee?
    And when I say that, in our responsibilities of oversight 
are we looking at something that is factually nonbased or do we 
have sufficient credibility in these issues and questions that, 
as Mr. Berman is doing, our chairman, we are continually 
engaging in oversight?
    Who are the believers in the concept of this title that 
says Climate Change in the Arctic: New Frontiers of National 
Security? I would like to start with you first. Forgive me for 
being in another hearing.
    Mr. Treadwell, you moved forward. Would you wish to start 
please, sir?
    Mr. Treadwell. Thank you. I guess I would say that as far 
as national security is concerned, whatever the cause is. We 
have a newly accessible ocean. The world can show up at our 
doorstep. We do not have appropriate rules in place and so it 
is very, very important that we consider all these changes in 
the Arctic and the diplomatic work to follow.
    On the other point of your question, I will go back to my 
brief, which as chair of the Arctic Research Commission, which 
helps this nation form its science programs, I can tell you 
that the number of questions that are out in terms of how will 
mitigation work, how will we adapt, what kind of effect is the 
Arctic having on all this, are so large that we just have to 
ensure that we have the international cooperation.
    One of my main messages here today is that we cannot give 
you the data that we need to give you without stronger 
international cooperation in the Arctic.
    Ms. Jackson Lee. Scott? Dr. Borgerson?
    Mr. Borgerson. Yes.
    Ms. Jackson Lee. Thank you.
    Mr. Borgerson. Yes, in the Arctic.
    Chairman Berman. Is that a new border, a new frontier?
    Mr. Borgerson. Absolutely, and there are also new frontiers 
elsewhere in U.S. foreign policy and national security strategy 
thinking, whether it be exacerbating existing political 
tensions.
    Now when you add the new climate sort of tensions and 
stresses there, contests over fresh water, forced migration, 
disease spreading to new latitudes where there are communities 
not capable to cope with them, drought, greater intensity and 
frequency of storms. All of those are hugely important from an 
environmental perspective, but also shape U.S. foreign policy 
and national security.
    Ms. Jackson Lee. Dr. Corell, do you want to finish?
    Mr. Corell. That is fine. I go back to the work of the CNA 
and the national security threat from climate change.
    General Sullivan and his team--they are all flag officers--
studied this very carefully and based their analysis on the 
IPCC work and the other scientific community work where there 
is broad consensus of the changes we are facing.
    Just let me read the words that are in the testimony, but 
just remind people that in the national and international 
security environment climate change threatens to add new 
hostile and stress factors. At the simplest level, it has the 
potential to create sustained natural and humanitarian 
disasters on a scale far beyond those we see today. It goes on 
in that nature.
    General Sullivan and I have had the privilege of working 
together because we see this as a very here and now issue that 
we need to address aggressively, thoughtfully. Both of my 
colleagues here at the table have indicated that we must work 
internationally with our colleagues.
    Chairman Berman. Dr. Corell?
    Mr. Corell. We are going to have to work this together, so 
it is a here and now issue.
    Chairman Berman. The time of the gentlelady has expired.
    Ms. Jackson Lee. Thank you.
    Chairman Berman. The gentleman from Texas, Mr. Poe, is 
recognized for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman. I want to ask Dr. Corell 
a few questions just so I can get it clear. Is there climate 
change?
    Mr. Corell. Yes.
    Mr. Poe. Has it been going on for a long time, for years, 
for centuries?
    Mr. Corell. Well, the climate on the planet has always been 
changing.
    Mr. Poe. Is there global warming today?
    Mr. Corell. There is relative warming to that which we have 
seen over the last 10,000 years.
    Mr. Poe. Is it man's fault?
    Mr. Corell. Most of it is during the last 50 years.
    Mr. Poe. I want to read an article, portions of it and get 
your comments. There are ominous signs the earth's weather 
patterns have begun to change dramatically and that these 
changes are a drastic decline in food production with serious 
political implications for all nations.
    The drop in food output could begin soon, perhaps 10 years 
from now. The regions to be heavily impacted are the wheat 
producing lands of Canada, Russia, Bangladesh, Pakistan, 
Indonesia. The evidence in support of these predictions has 
begun to accumulate so massively that meteorologists are hard 
pressed to keep up with it.
    It goes on and on and on and talks about the next ice age. 
It is an article written April 28, 1975, by Peter Gwynn in 
Newsweek. It quotes the National Oceanic and Atmosphere 
Administration for its support, the National Academy of 
Scientists and basically says and does say meteorologists are 
unanimous in that we are experiencing the beginning of the next 
ice age.
    Newsweek, April 28, 1975. I ask unanimous consent to have 
this article placed in the record.
    Chairman Berman. It will be included.
    [The information referred to follows:]<greek-l>FTR, The 
Cooling World... 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Poe. Now, I grew up in the '70s. I believed all this, 
that we are all going to freeze in the dark. It talks about how 
people from the north are going to move south--of course, that 
would be a concern for people like me in Texas--because it is 
too cold in the north. But I believed all of this. They said it 
is a fact. The next ice age.
    Now we hear, and I am not really quarreling with you, but 
now we hear it is a fact of global warming. How do you 
reconcile these differences in expert opinion now just 30 years 
later?
    Mr. Corell. If I could, I grew up in the same era. I heard 
those same things, and I have a background in oceanography so 
those were words I heard as well.
    Along about the 1980s we in the scientific community, 
particularly in the oceans, were depicting signals that we had 
not seen before. There was some warming going on, and it 
resulted that in the mid '80s we decided we really had to study 
this ocean and the atmosphere and ultimately the land very 
differently than we had in the past.
    I would argue that the massive investments made by places 
like the National Science Foundation, NASA and our counterparts 
in 25 other countries of the world have enabled us to see more 
clearly what is really happening on the planet, and there was 
some relative cooling going on during that time that gave 
signals that we didn't have the scientific evidence that we 
have today.
    So we have been able to, shall I say, get a better 
understanding about how the planet works, and we would say 
differently then if we knew then what we know now.
    Mr. Poe. Would you agree that there are experts in climate 
change that disagree that we are having global warming?
    Mr. Corell. One of the things that makes science exciting 
is that we are always challenging others. If we don't have 
people challenging us, we are going to make serious mistakes. 
We have to be able to duplicate what others have done in 
science.
    So the nest of science is full of contentiousness, and it 
should be. That is what brings truth to the table. It is when 
the science arguments are made for other reasons than 
intellectual understanding of how the planet works. That is 
when we get in trouble.
    Mr. Poe. So you agree that there are scientists that 
disagree with your premise that there is global warming?
    Mr. Corell. Yes. I think the thing is it is not--yes, that 
is right. There are going to be some people like that.
    Mr. Poe. So how do people like me who are just lawyers or 
citizens know whether we are going to freeze or whether we are 
going to burn up? I mean, how do we know who to believe?
    Mr. Corell. The thing that happened in the '80s is we 
created an entity called the IPCC, the Intergovernmental Panel 
on Climate Change, for precisely that reason.
    We engage well over 2,500 scientists who are all over the 
world to engage in an assessment of current state of knowledge. 
That is different than one person publishing a paper, and so 
there is a different set of----
    Mr. Poe. Let me interrupt. Let me interrupt, Doctor.
    Mr. Corell. Yes. Sorry.
    Mr. Poe. I am about out of time. Do you think we still 
should be able to have this discussion about whether there is 
global warming or not, or is that a done deal and let us just 
move on?
    Mr. Corell. The last 50 years it is clear from IPCC and all 
the other assessments, collections of knowledge, that we do 
have a relative warming that is now starting to take us out of 
the range that we have been in for the last 10,000 years.
    Chairman Berman. Judge Poe, we are going to have to move 
on----
    Mr. Poe. Thank you, Mr. Chairman.
    Chairman Berman [continuing]. In your terms.
    Mr. Poe. Let us move on, Mr. Chairman. Thank you.
    Chairman Berman. Mr. Carnahan, the gentleman from Missouri, 
for 5 minutes?
    Mr. Carnahan. Thank you. I am not a surfer like my friend, 
Mr. Rohrabacher, and I am not going to debate----
    Chairman Berman. You are from Missouri. It is hard to be a 
surfer.
    Mr. Carnahan. I do want to thank the panel. This is a great 
topic. Dr. Borgerson, again welcome. I appreciate your common 
sense approach. You can tell you are from Missouri.
    This really points out so many different reasons why we 
have to get our Arctic act together, and I think you have 
really summed it up well, but I wanted to get back. Dr. 
Borgerson, I think Mr. Faleomavaega had asked about the reasons 
why we really hadn't gotten this through our political policy 
process, and I think you kind of got cut off on that.
    I wanted to let you finish about that and also let the 
others address that as well, but also ask if you could assess 
where we are with the Obama administration in terms of new 
initiatives to take that forward because I think there is 
certainly a mindset with the new administration on more and 
better international engagement, and certainly it seems to me 
like this ought to be on their plate.
    Mr. Borgerson. Thank you, and it is fun to bring a Show-Me 
State approach to Arctic geopolitics.
    Before answering that specifically about the Law of the 
Sea, if I could take 2 seconds to speak to some of the 
dissention I hear about climate change science?
    Mr. Carnahan. Please.
    Mr. Borgerson. As a sailor's perspective, from a national 
security point of view, in the end it really doesn't matter. 
There is a point where you are sure enough and you better start 
taking action.
    So if you are in a foxhole in Iraq you don't wait until you 
are 100 percent sure to get out of that foxhole or you are 
dead, and I think that is why the Pentagon and the Joint Chiefs 
of Staff and national security experts take climate change very 
seriously.
    Insurance providers, for example, are very objective, 
analytical, quantitative people. They are worried about climate 
change because the risk of inaction is so much larger than 
doing nothing.
    So with that as a preface to the Law of the Sea, the United 
States did not change prior to the 1994 agreement and 
implementation because the deep seabed mining provisions had 
not been corrected. By all accounts they have been corrected, 
and the Senate Foreign Relations Committee has twice reported 
out the Convention with advice and consent to the Senate to 
accede to the Convention, but the Senate Majority Leader in 
both cases did not schedule it for a debate and a vote.
    The last time that happened----
    Mr. Carnahan. Excuse me. Which Congress was that, the last 
time they did that?
    Mr. Borgerson. The last time was December 2007.
    Mr. Carnahan. Okay.
    Mr. Borgerson. And when it came out of the Senate Foreign 
Relations Committee they had a draft very long, detailed list 
of interpretations and observations that are important from a 
sovereignty perspective to safeguard U.S. interests that were 
recommended to the Senate if or when we accede to the 
Convention.
    To the point about now, I think the stars are really 
aligned and that this is the year. This should be the year. 
President Obama supports the Convention. Vice President Biden 
was chairman of the Foreign Relations Committee the last time 
it was released out. Secretary Clinton in her confirmation 
hearings said that U.S. accession to the Convention would be 
one of her top priorities.
    Secretary of Defense Gates supports the Convention. The 
Joint Chiefs of Staff, CNO and the Coast Guards, support the 
Convention. Senator Kerry, currently chairman of the committee, 
supports the Convention. The interest groups and stakeholders 
in this issue all support the Convention.
    So I think this is the year, and for the Arctic, in 
addition to other issues of strategic importance to this 
country, the United States needs to finally formally join the 
Law of the Sea.
    Mr. Carnahan. All right. Dr. Corell or Mr. Treadwell?
    Mr. Corell. I think he has done a really nice job for us.
    Mr. Carnahan. Okay. All right.
    Mr. Treadwell. Actually, I will add one thing. Governor 
Palin and the entire Alaska delegation support this accession 
to the Law of the Sea. For us, not being at the table as these 
issues are done in our neighborhood is very, very difficult.
    And the point I had made before is that I understand the 
concerns that others have raised. I used to be an environmental 
regulator, and nobody likes to see rules imposed upon them from 
outside, but I think you as the Congress can make it very, very 
clear that the United States is not going to follow rules that 
you don't pass as a Congress. If you do that, that should 
answer those objections.
    Mr. Carnahan. Thank you very much.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from California, Ambassador Watson, is 
recognized for 5 minutes.
    Ms. Watson. Thank you, Mr. Chairman. It has been very 
fascinating listening to the challenges of science and hearing 
the response of our scientists.
    I believe the climate is changing. I am from Los Angeles, 
and at one period we had 38 days of rain. Now, we welcome that, 
but it doesn't happen often. Something is happening.
    And so I am concerned because we have not properly funded 
our Coast Guard or our Navy, and as a result they are not the 
strongest arm for our defense system so at this point it is 
unclear if our country is prepared to take a lead in the 
Arctic, be it in monitoring the waterways or changes in the 
environment.
    Now, I would like all of you to respond. I am going to go 
to my second question with this, and all of you can respond to 
that. Can we quickly scale up enough resources to become and 
remain a leader in the region?
    And, as we know, the weather in the Arctic, even during the 
summer months, will likely remain unpredictable with the 
ability to cause shipping delays. Any oil or gas spills will be 
difficult to clean and very costly. Thus, opening shipping 
routes will likely have many negative environmental effects.
    So should we continue, knowing what we know at this moment 
and by the fact there is a lot of unpredictability? With all 
these factors considered, are the Arctic shipping routes worth 
remaining as they are with the melting of the ice, the rising 
of the level of the sea?
    I am thoroughly convinced that if we don't start now paying 
attention to the environment the environment will become our 
biggest enemy. Can you respond? Do we have the resources?
    Mr. Treadwell. Ambassador Watson, a couple of things. Last 
year the Congress failed to pass a Coast Guard authorization 
bill. There was different language in the House and the Senate 
as to whether or not we would need icebreakers.
    Scott gave us a B+ on the Arctic policy because we weren't 
very clear. There was actually a food fight within the 
Executive Branch on whether or not we would need icebreakers.
    There has been a National Academy of Sciences study saying 
we need them. The Commission has come out. The chairs of the 
Joint Chiefs of Staff have said that we need this icebreaker 
capability. If we start building now, we may have them in the 
next decade when we will certainly need them.
    I hope as this Congress considers the Coast Guard 
authorization bill we get those resources. We are moving the 
land-based resources up there. The science issues are going 
along fairly well.
    But let me say this about shipping. Our Commission paid for 
the substantial part of the Arctic Marine Shipping Assessment 
done by the eight Arctic nations, which will be reported to the 
ministers in April. It will show that in 2004 in the Arctic or 
adjacent ice covered regions there have been close to 5,400 
vessels greater than 100 tons traveling through this area.
    To say no shipping is not really realistic. This is a major 
part of the Great Circle route between Los Angeles and Asia. It 
is a place we resupply villages in the north throughout the 
Arctic.
    What is very important is that we do the risk assessment 
and that we work to make the shipping safer, as we do every 
other place. Signing onto Law of the Sea, going through the 
International Maritime Organization to get a mandatory polar 
code, setting up the vessel traffic systems and the 
identification systems are all resource investments we can 
make.
    Right now there is no way you can tell a nation say not a 
member of the Arctic, a Korean ship, not to sail across this 
ocean, but we can get together through the IMO and set up good 
rules to do it, and that is what the policy saying that 
shipping should be safe, secure and reliable says we should do.
    I will make sure that we get you a copy of the Arctic 
Marine Shipping Assessment when it comes out.
    Mr. Borgerson. Even if Congress appropriates money tomorrow 
it is going to take a decade to build these new ships and 
because of the Jones Act and the cost it imposes on the country 
at least $1 billion per ship. At current pace, that is 5 years 
after the Arctic is ice free, which we are already behind the 
eight ball.
    Not only is shipping there now; next summer a German bolt 
company has applied and gotten Russian permission to begin 
using the Northern Sea route for interocean transit, so this is 
happening. This isn't science fiction 20 years from now. It is 
happening now.
    I would finish my comment by saying that there is a broader 
challenge. Not only do we not fully appreciate the shipping and 
threats off our Alaskan coast and the Arctic; we don't fully 
understand still this far after 9/11 what is called maritime 
domain awareness, a security picture off of these coasts.
    Are there bombs in a box, what ships are approaching the 
U.S. shore, et cetera. A huge security challenge has to be 
solved, and it is the same in the Arctic as it is in the Lower 
48.
    Chairman Berman. The time of the gentlelady has expired.
    The ranking member, Ms. Ros-Lehtinen, is recognized for 5 
minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you to our panelists this morning.
    The United States has had a long and active military 
presence in the Arctic, including defense against missile and 
bomber attacks, regular visits by submarines and surface 
vessels. I had some questions about this issue.
    How might U.S. defenses be impacted by the extension of 
sovereignty by other countries; also by Canada's claim of 
sovereignty on the Northwest Passage? Any new threats emerging, 
and how can we ensure that our national security will not be 
undermined by current and future developments in that region?
    Thank you, gentlemen.
    Mr. Borgerson. Do you want me to start?
    Mr. Treadwell. Yes. Why don't you start?
    Mr. Borgerson. Very quickly, most of that presence has been 
subsurface submarines, not surface, and so we still have a very 
capable submarine capability in the Arctic. We have a not-so-
capable surface capability.
    The Arctic is also divided amongst three combatant 
commanders, which doesn't make very good sense from a security 
perspective. There is not one combatant commander with sole 
responsibility for that area of operations.
    And to the point of Canada and the Northwest Passage, the 
1988 agreement to disagree that President Reagan signed I think 
works and that we should deepen and widen that to be able to 
respond to these new security challenges in creating a common 
North American block and a classic balance of power perspective 
so as to hedge against Russia.
    Mr. Treadwell. Thank you very much. I would only add this: 
We and Canada are very important allies. You can go a mile from 
my house and in a joint command at the Alaska Command you have 
Canadian officers and American officers working on the air 
defense of the United States today.
    It is very much in both national interests to protect our 
environment. It is very much in both of our national interests 
to do. Article 234 of Law of the Sea was actually I believe 
proposed by the Canadians to grant nations the extra ability in 
ice covered waters to ensure environmental protection. So we 
get on Law of the Sea, and I think we sit down with the 
Canadians and see how we can build this partnership.
    Freedom of navigation, something that is supposedly a big 
argument between our two countries, is something that our 
nation depends on all over, all over the oceans of the world, 
and I think ultimately we can work out how we protect the 
Arctic environment and maintain freedom of navigation other 
places.
    Ms. Ros-Lehtinen. Mr. Chairman, thank you so much, and well 
timed because I see the bells have gone off to a vote. Thank 
you, sir.
    Chairman Berman. Yes. We do have votes announced. I am 
going to take just a couple of minutes to go back and touch on 
a few issues that haven't yet been covered, but this has been 
very helpful to me and I think to a lot of the members who have 
been following this.
    I made reference to this in my opening statement in that in 
the Ilulissat Declaration the coastal Arctic countries, 
including the United States, concluded that a comprehensive 
international Arctic agreement was not needed. Experts, to the 
contrary, have said the region's complexity requires a 
comprehensive framework.
    What do you think of that conclusion? How should the United 
States and other Arctic countries govern the Arctic? Is a 
comprehensive governing structure needed, and what would be its 
components? I would be interested in hearing from all of you on 
that.
    Mr. Borgerson. I will start quickly since I have three New 
York Times op eds on the subject, and I have actually changed 
my mind over time.
    I used to think that it was ripe for something modeled on 
the Antarctic Treaty, but I think that is not the case because, 
frankly, they are just too dissimilar and the geopolitics too 
complicated.
    So I think the Law of the Sea provides the legal granite 
bedrock on which to build the governing approach to the Arctic, 
but that you can build on top of that elegant institutional 
structures on top of that like empowering the Arctic Council, 
like a marine preserve at the North Pole, et cetera.
    While the Ilulissat Declaration was beautiful in its 
commitment to the rule of law and international peace and 
harmony, at the same time Russia resumed strategic bomber 
flights over the Arctic for the first time since the Cold War, 
dispatched naval combatants to the disputed waters off the 
Svalbard and so forth.
    And so I think while that diplomacy is terrific first we 
have to sign the Law of the Sea and then we have to conduct 
energized diplomacy on which to build governing structures in 
which to respond to these emerging challenges.
    Mr. Treadwell. Mr. Chairman, in my testimony I talked about 
this. I also used to write in favor of the idea of an Arctic 
treaty. I realize as we go through the homework list of 
comprehensive things we have to do, whether it is fisheries and 
so forth, that there are mechanisms already in place.
    I would urge this committee to work to see how we 
strengthen the Arctic Council. Part of it is who gets to the 
table and who is in the room. The Arctic Council is very unique 
in that it brings a set of permanent participants and 
indigenous representatives to the table, which would be very 
difficult on a global Arctic treaty.
    You also have the eight nations there, and it is a small 
enough group that most of us know each other and have worked 
very well now together for close to 20 years.
    Chairman Berman. What can we as a Congress do? I mean, we 
certainly can talk with parliamentarians and leaders of----
    Mr. Treadwell. Sure.
    Chairman Berman [continuing]. The other members of the 
Council, but in terms of actually strengthening it? Are there 
steps we can take unilaterally?
    Mr. Treadwell. Yes, there are. I mean, one is the 
Scandinavians have proposed a secretariat.
    The United States has not gone forward on funding of this 
issue because the Congress has not said--well, there is no 
authority. If the Congress would say we would make that our 
vehicle for Arctic cooperation and fund it that could be a very 
important thing.
    The second thing is who votes. I mean, within that group we 
now have a large number of observer countries. China is coming 
in as an observer to begin with.
    I like to think of those observers as Arctic partners. Lots 
of things happen in China that affect the Arctic and vice versa 
and so if we have a core group and then a partnership group 
that may be a better way to go about it.
    Mr. Borgerson. Just quickly, I think you can model it on 
the U.N. Security Council. There you have the P-5, although it 
needs to be reformed to reflect reality today. In the Arctic 
you have the A-5, the five coastal states who all have veto 
power.
    There should be a permanent secretary, and then you add 
other seats at the table that reflect these various interests, 
including the Chinese and Japanese, but especially 
international indigenous communities as well that participate 
in mapping out the government's framework for the future 
Arctic.
    Chairman Berman. Dr. Corell?
    Mr. Corell. Yes. Towards the end of my statement I noted 
this project called Arctic Governance, and one of the 
commitments that we have made is that as this project proceeds 
to try to get that landscape well, well structured.
    We have people like it turns out my cousin, Hans Corell, on 
that committee. He was the top legal advisor to the U.N. for 10 
years, and he brings a lot of international law to the table, 
as well as Russians and others.
    We have made a commitment to you in this committee and 
others, as well as the other Arctic countries, to share with 
you what we are learning in that process. It is an 18-month 
study, and out of it we expect to paint a policy picture in 
ways that maybe gives a little more underpinning than we now 
have at our disposal, so we will commit to come and talk to 
your staff about that over time.
    Chairman Berman. Great. Okay. Well, thank you all very much 
for coming; you especially who had quite a turnaround. It was 
very helpful, very enlightening.
    The hearing is now adjourned.
    [Whereupon, at 11:52 a.m. the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
